                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA Is Not Fully Aware
                     of the Extent of Its Use of
                     Cloud Computing
                     Technologies
                     Report No. 14-P-0323              July 24, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Rudolph M. Brevard
                                                   Charles M. Dade
                                                   Albert E. Schmidt

Abbreviations
3PAO          Third-Party Assessment Organization
BPA           Blanket Purchase Agreement
CFR           Code of Federal Regulations
CIGIE         Council of Inspectors General on Integrity and Efficiency
CIO           Chief Information Officer
CO            Contracting Officer
CSP           Cloud Service Provider
eNOI          Electronic Notice of Intent
EPA           U.S. Environmental Protection Agency
FAR           Federal Acquisition Regulation
FedRAMP       Federal Risk and Authorization Management Program
FY            Fiscal Year
GSA           General Services Administration
IM/IT         Information Management/Information Technology
IT            Information Technology
N/A           Not applicable
NCC           National Computer Center
NDA           Nondisclosure Agreement
NIST          National Institute of Standards and Technology
NOI           Notice of Intent
OAM           Office of Acquisition Management
OEI           Office of Environmental Information
OIG           Office of Inspector General
PMOS          Permit Management Oversight System
SLA           Service Level Agreement
SP            Special Publication
TOS           Terms of Service


Hotline                                          Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us      To make suggestions for audits or evaluations, contact
through one of the following methods:            us through one of the following methods:

email:     OIG_Hotline@epa.gov                   email:    OIG_WEBCOMMENTS@epa.gov
phone:     1-888-546-8740                        phone:    1-202-566-2391
fax:       1-202-566-2599                        fax:      1-202-566-2599
online:    http://www.epa.gov/oig/hotline.htm    online:   http://www.epa.gov/oig/contact.html#Full_Info

write:     EPA Inspector General Hotline         write:    EPA Inspector General
           1200 Pennsylvania Avenue, NW                    1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                  Mailcode 2410T
           Washington, DC 20460                            Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  14-P-0323
                                                                                                           July 24, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review
                                    EPA Is Not Fully Aware of the Extent of Its Use
The U.S. Environmental              of Cloud Computing Technologies
Protection Agency (EPA),
Office of Inspector General
                                     What We Found
(OIG), conducted this audit to
evaluate select agency efforts      The CIGIE developed a survey and asked its members
to adopt cloud computing                                                                         EPA officials lack
                                    to contact their respective agencies and collect             confidence that
technologies and to review          information about the deployment of cloud computing          offices recognize
executed contracts between          technologies. Additionally, CIGIE provided a matrix          its full use of cloud
the agency and cloud service        template for each Inspector General to complete to           computing for
providers for compliance with       standardize the results of the CIGIE collaboration effort,   agency operations.
applicable standards. This audit    and to assist with the completion of the consolidated
was conducted as part of a          report. In consultation with the CIGIE, the EPA OIG selected one system to
governmentwide initiative by        review and completed the provided matrix with test results.
the Council of the Inspectors
General on Integrity and            The EPA OIG selected the current contract for the Office of Water’s Permit
Efficiency (CIGIE). Information     Management Oversight System (PMOS) for testing. In 2012, the Office of Water
gathered during the subject         used the Office of Acquisition Management to contract for a vendor to maintain
audit will be incorporated into a   and host the PMOS application. Although the PMOS was not included in the
governmentwide report to be         EPA’s response document to the CIGIE survey, the PMOS is currently hosted by
released by CIGIE.                  an EPA subcontractor whose hosting environment has cloud characteristics. The
                                    subcontractor’s hosting environment also appeared to meet the definition of a
The report addresses                “cloud,” as defined by the National Institute of Standards and Technology (NIST)
the following EPA goal              Special Publication 800-145, The NIST Definition of Cloud Computing.
or cross-agency strategy:
                                    The PMOS enables the EPA to track general and tribal permits at a summary
  Embracing EPA as a high-         level. The PMOS captures limited information on these permits, which enables
   performing organization.         the EPA to track the universe and status of these permits. The PMOS is used to
                                    prepare National Pollutant Discharge Elimination System reports for the Office of
                                    Management and Budget.

                                    Our audit work disclosed management oversight concerns regarding the EPA’s
                                    use of cloud computing technologies. These concerns highlight the need for the
                                    EPA to strengthen its catalog of cloud vendors and processes to manage vendor
                                    relationships to ensure compliance with federal security requirements. In
                                    particular:

                                        The EPA did not know when its offices were using cloud computing.
                                        The EPA should improve the oversight process for prime contractors
                                         (to include ensuring subcontractors comply with federal security
For further information,                 requirements and establishing service-level agreements for cloud services).
contact our public affairs office       There is no assurance that the EPA has access to the subcontractor’s
at (202) 566-2391.                       cloud environment for audit and investigative purposes.
                                        The subcontractor is not compliant with the Federal Risk and Authorization
The full report is at:
                                         Management Program.
www.epa.gov/oig/reports/2014/
20140724-14-P-0323.pdf
                                    The EPA indicated the provided matrix is factually correct. The EPA response
                                    and our comments are at appendix B.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460

                                                                                       THE INSPECTOR GENERAL




                                              July 24, 2014

MEMORANDUM

SUBJECT:       EPA Is Not Fully Aware of the Extent of Its Use of Cloud Computing Technologies
               Report No. 14-P-0323

FROM:          Arthur A. Elkins Jr.

TO:            Rod DeSmet
               Deputy Assistant Inspector General for Audit
               Office of Inspector General (USDA)
               CIGIE Cloud Computing Consolidated Report Lead

Attached please find the results of the subject audit. We performed this audit in accordance with
generally accepted government auditing standards. Those standards require the team to plan and perform
the audit to obtain sufficient and appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the objectives of the audit.

We believe the evidence obtained provides a reasonable basis for our findings and conclusions and, in
all material respects, meets the reporting requirements prescribed by Council of the Inspectors General
on Integrity and Efficiency (CIGIE). In accordance with CIGIE reporting instructions, we are
forwarding this report to you.

We briefed agency officials on the results of our audit work and, where appropriate, made an
adjustments. The results have been verified for accuracy in accordance with our internal quality control
process. As part of our process, we were unable to identify a complete audit universe via data call. Of
the known cloud systems, we selected the EPA Office of Water’s Permit Management Oversight System
Application using non-statistical sampling.

Prior to starting work on this audit, we were in the process of performing a cloud audit related to two of
the EPA’s cloud initiatives. During that separate audit, we collected information that made us aware of
two cloud initiatives within other program offices. Since we selected two cloud initiatives from the
EPA Office of Environmental Information during the other audit, we selected one of the initiatives from
a different program office to not overburden the EPA Office of Environmental Information.

The EPA offices having primary responsibility for the issues evaluated in the report are the Office of
Water and Office of Administration and Resources Management’s Office of Acquisition Management.

We will post this report to our website at http://www.epa.gov/oig.
EPA Is Not Fully Aware of the Extent of                                                                                  14-P-0323
Its Use of Cloud Computing Technologies




                                  Table of Contents
   Overview of the CIGIE Cloud Computing Collaboration Results Matrix................                                          1

        Step 1: Cloud Computing Data Call ...................................................................                  3
        Step 2: Inventory of Cloud Services and Service Providers ...............................                              4
        Step 3: Roles and Responsibilities Defined in Contracts ....................................                           5
        Step 4: Service Level Agreements in Contracts .................................................                        8
        Step 5: Access to CSP for Audit and Investigative Purposes .............................                               11
        Step 6: Review of the Agency’s Process for Monitoring Its
                Cloud Computing Provider .....................................................................                 15
        Step 7: Enterprise Management of Cloud Service Providers ..............................                                16
        Step 8: FedRAMP Compliance ..........................................................................                  18



 Appendices
   A    CIGIE Cloud Computing Survey Returned by the EPA ..................................                                    22

   B    Joint Office of Administration and Resources Management and
        Office of Water Responses to the Draft Report and OIG Comments ............                                            27

   C    Distribution .......................................................................................................   29
                             Overview of the CIGIE Cloud Computing Collaboration Results Matrix

 Purpose         The purpose of the matrix is to standardize the results of the Council of Inspectors General on Integrity and
                 Efficiency (CIGIE) collaboration effort to assist with the completion of the consolidated report.

 Instructions    Provide responses to the questions in the matrix. Complete one matrix per system tested. You should design your
                 testing to address the questions specified within each step. Each step has its own tab within the matrix. The response
                 options include Yes, No, or N/A and are available in a drop-down list within the cell. If more than a Yes, No, or N/A
                 is necessary for the question, we have included instructions to place the specific information in the "IG Comments"
                 field. Additionally, please feel free to include any additional comments that are warranted.

 Criteria        When possible, we have included references to criteria for the applicable steps.

 Modifications If during the course of completing the matrix, the auditor identifies a potential improvement to the matrix, please
               notify the following individual for requested modifications:
               Corey Bidne, Senior Auditor, USDA-OIG
               corey.bidne@oig.usda.gov
               816.823.3884



                                                     Agency Point of Contact
                                         (Complete for the Individual in charge of testing)
 Name            Rudolph M. Brevard
 Department      Office of the Inspector General (OIG)
 Agency          Environmental Protection Agency (EPA)
 Phone           (202) 566-0893
 Email           brevard.rudy@epa.gov




14-P-0323

                                                                                                                                     1
 The matrix is divided into tabs based on the following sections. You should design your testing to address the questions
 specified within each tab.
 Step 1          Cloud Data Call
 Step 2          Cloud System Inventory
 Step 3          Cloud Service Agreements (TOS, NDAs)
 Step 4          Cloud Service Level Agreements
 Step 5          Cloud Service Access
 Step 6          Cloud Service Provider Monitoring
 Step 7          Cloud Service Central Management
 Step 8          FedRAMP Compliance Progress




14-P-0323

                                                                                                                            2
 Procedure Step:          1. Cloud Computing Data Call
                          Request data on agency cloud computing practices for the review of the agency’s cloud computing
 Purpose:
                          technologies.
                          Submit the CIGIE Cloud Computing Survey to the agency and request data on current fiscal year (FY 2014)
 Scope/Methodology:
                          cloud computing systems for the review of the agency’s cloud computing technologies.


 Agency:                  EPA
 System:

 Prepared By:             Albert E. Schmidt
 Reviewed By:             Charles M. Dade

Audit       Question to Address               Response                IG Comments                        Agency Response
Step #
 1.1   Date the agency’s inspector      February 19, 2014                 N/A
       general contact received the
       completed CIGIE Cloud
       Computing Survey from the
       agency ? (mm/dd/yyyy)
 1.2   If the agency did not return a N/A—The agency                      N/A
       completed survey - please        returned the survey.
       provide a reason why in the
       response field. (i.e., agency
       was not able to provide
       because it did not have any
       cloud systems in its inventory.)




14-P-0323

                                                                                                                               3
 Procedure Step:              2. Inventory of Cloud Services and Service Providers
                              Determine the agency’s enterprise-wide inventory of cloud IT services and service providers, and select a
 Purpose:
                              sample of providers to evaluate
 Source:                      Compile the results of questionnaires sent to the department/agency Chief Information Officers (CIOs).

                              Determine the department/agency’s enterprise-wide inventory of cloud IT services and service providers as of
 Scope/Methodology:
                              the survey date (FY 2014) and select a sample of providers for evaluation.

 Prepared By:                 Albert E. Schmidt
 Reviewed By:                 Charles M. Dade

Audit     Question to Address            Response                                            IG Comments
Step #
 2.1   How many total cloud IT              11      The auditor lacks confidence there were 11 cloud IT services as identified in the completed
       services were identified                     cloud survey. Specifically, the Office of Acquisition Management (OAM) indicated that the Cloud
       from the survey (list                        Survey was completed by performing a search for the word “cloud” in the procurement
       numerical value of                           description. As a result, the auditor concludes that regardless of whether a contract was a cloud
       services in response                         contract, the contract would only be included on the list if the term “cloud” appeared in the
       field, limited                               description of the procurement. During the audit, the auditor became aware of one application
       to 2 digits)                                 incorrectly listed as a cloud application and two applications that appear to be cloud
                                                    applications not included in the survey results. The OAM said it has no database that
                                                    specifically identifies “cloud” procurements.



 2.2    How many unique cloud               10
        service providers were
        identified from the survey
        (list numerical value of
        services in response
        field, limited to two digits).




14-P-0323

                                                                                                                                                4
Procedure Step:         3. Roles and Responsibilities Defined in Contracts
                        Determine if the agency’s contracts with cloud service providers clearly define the roles and responsibilities of
Purpose:
                        the agency, the Cloud Service Provider (CSP) and, if applicable, system integrators.

                        Review selected contracts that have been executed between the agency and the CSP/Reseller and determine
Scope/Methodology:
                        whether the contract contains clearly defined roles for the agency, the CSP and any system integrators
                        If the contract was procured through the General Services Administration (GSA) IT 70 Federal Supply
                        Schedule (FSS), a GSA blanket purchase agreement (BPA), or a shared service BPA, when reviewing the
Note:                   contract, be sure to include the original contract and solicitation documentation that was agreed to by GSA or
                        the BPA originating agency in your review to ensure all contract documentation is reviewed prior to making a
                        determination on the results of your audit testing.
                        A supplemental guide was created to assist the auditor with identifying the additional terms, conditions, and
Supplement:
                        clauses. The guide is titled “CIGIE Audit Results Matrix Supplement-IT 70 Schedule Clauses.docx.”


Prepared By:            Albert E. Schmidt
Reviewed By:            Charles M. Dade

 Audit    Question to Address Response                                            IG Comments
 Step #
  3.1   Did the Cloud contract   No    The contract indicates the primary contractor will host the Permit Management Oversight System
        include Terms of Service       (PMOS) application and will follow the EPA’s policies and procedures; however, there are no
        (TOS) clauses? (Cloud          specific Terms of Service (TOS) clauses related to the hosting of the PMOS application (We
        Best Practices Bookmark        reviewed the contract, amendment, and task orders). Additionally, the EPA has not agreed to
        5)                             terms of service outside of the contract. On April 30, 2014, the EPA said the primary contractor
                                       agreed to the service agreement of the subcontractor responsible for hosting the PMOS and
                                       provided a link to the service agreement that included the following disclaimer:

                                             “You acknowledge and agree that your use of the services is solely at your own risk, and that
                                             except as expressly provided herein the services are provided on an ‘as is’ and ‘as available’
                                             basis. [The subcontractor hosting the PMOS application] expressly disclaims any and all
                                             warranties and conditions of any kind, express, implied, or statutory, including, without limitation,
                                             the implied warranties of title, noninfringement, merchantability, and fitness for a particular purpose
                                             and any warranties arising from a course of dealing, usage or trade practice.


14-P-0323

                                                                                                                                                5
                                         Furthermore, [the subcontractor hosting the PMOS application] does not warrant that the services
                                         and/or any information obtained thereby shall be complete, accurate, uninterrupted, secure or error
                                         free. [The subcontractor hosting the PMOS application] further makes no warranty that the services
                                         will meet your requirements, nor does [the subcontractor hosting the PMOS application] make any
                                         warranty as to the results that may be obtained from the use of the services.”
 3.1a   If not, did the             No   The EPA has not agreed to TOS outside of the contract.
        department/agency sign
        a TOS agreement with
        the cloud service
        provider?
  3.2   If the TOS clauses were     No   There were no TOS agreed to within or outside the contract related to the hosting of the PMOS
        not directly within the          application between the EPA and the primary vendor; however, as identified in audit step 3.1, the
        contract, but referenced         prime contractor did accept the TOS with the subcontractor. The contracting officer said they only
        within the contract, were        became aware of the subcontractor as a result of audit inquiries.
        the TOS clauses
        negotiated and agreed to
        prior the contract being
        awarded? (Cloud Best
        Practices Bookmark 1)
  3.3   Is there a                  No   There are no TOS between the EPA and the primary contractor related to hosting the PMOS
        departmental/agency              application.
        official assigned to
        monitor the cloud service
        providers compliance
        with the TSO?
  3.4   Is there a                  No   There are no TOS between the EPA and the primary contractor related to hosting the PMOS
        departmental/agency              application.
        official assigned to
        monitor the agency's
        compliance with the
        TOS?
  3.5   Do the TSO clauses or       No   There are no TOS between the EPA and the primary contractor related to hosting the PMOS
        the cloud contract               application.
        address timeframes that
        the CSP will need to
        follow in order to comply
        with federal agency rules
        and regulations? (Cloud

14-P-0323

                                                                                                                                        6
        Best Practices Bookmark
        2)
  3.6   Did the cloud service        No   The cloud service provider (CSP), a subcontractor, did not sign a nondisclosure agreement (NDA),
        provider sign a                   but instead only had a service agreement with the primary contractor. This service agreement
        nondisclosure agreement           contains a warranty disclaimer that states:
        (NDA) with the
        department/agency in              [The sub-contractor hosting the PMOS application] “does not warrant that the services and/or any
        order to protect non-             information obtained thereby shall be complete, accurate, uninterrupted, secure or error free.”
        public information that is
        procurement-sensitive, or         Since the prime contractor accepted the terms of the CSP, there is no NDA between the EPA and
        affects pre-decisional            the CSP.
        policy, physical security,
        or other information
        deemed important to
        protect? ( Cloud Best
        Practices Bookmark 3)
 3.6a   If so, does the NDA          No   The EPA does not have an NDA established for the CSP; therefore, no rules of behavior were
        establish rules of                established for the CSP associated with a nondisclosure agreement. Although no nondisclosure
        behavior for the CSP and          agreement or associated rules of behavior exist for the CSP (a subcontractor), the blanket
        a method to monitor end-          purchase agreement (BPA or contract) established rules of behavior for the primary contractor.
        users activities in the           However, we reviewed and determined that the PMOS BPA, related task orders, and modifications
        cloud environment?                did not provide a method to monitor end-user activities.
        (Cloud Best Practices
        Bookmark 4)
 3.6b   If so, is there a            No   The EPA does not have an official assigned to monitor CSP compliance with the NDA. The
        departmental/agency               contracting officer said they are unaware of an official assigned to monitor CSP compliance with
        official assigned to              the NDA.
        monitor the cloud service
        providers compliance
        with the NDA?




14-P-0323

                                                                                                                                         7
 Procedure Step:         4. Service Level Agreements in Contracts
                         Determine if the agency’s contracts with cloud service providers contain service level agreements (SLAs) that
 Purpose:                define performance with clear terms and definitions, demonstrate how performance is being measured, and
                         what enforcement mechanisms are in place to ensure SLAs are met;

                    Review service level agreements with cloud providers and determine whether the SLA:
                    1. Defines performance with clear terms and definitions (uptimes, etc.)
 Scope/Methodology:
                    2. Demonstrates how performance is being measured
                    3. Defines enforcement mechanisms when performance is not met
                         If the contract was procured through the GSA IT 70 Federal Supply Schedule (FSS), a GSA BPA, or a shared
                         service BPA, when reviewing the contract, be sure to include the original contract and solicitation
 Note:
                         documentation that was agreed to by GSA or the BPA originating agency in your review to ensure all contract
                         documentation is reviewed prior to making a determination on the results of your audit testing.


                         A supplemental guide was created to assist the auditor with identifying the additional terms, conditions, and
 Supplement:
                         clauses. The guide is titled “CIGIE Audit Results Matrix Supplement-IT 70 Schedule Clauses.docx.”



 Prepared By:            Albert E. Schmidt
 Reviewed By:            Charles M. Dade

Audit      Question to Address            Response                                           IG Comments
Step #
 4.1   Does the agency have an                No          The EPA does not have an SLA. The EPA does have performance work statements
       executed service level                             (specified in the BPA), which provide the scope of work for the PMOS. Task orders
       agreement (SLA) with the                           have Performance Standards and Quality Assurance Surveillance Plans. However,
       CSP, either as part of the                         neither the performance work statements, nor the task orders that have Performance
       contract, or as a stand-alone                      Standards and Quality Assurance Surveillance Plans, provided detailed service
       document?                                          levels for contractors to uphold with regard to hosting the PMOS application. These
                                                          documents only state the vendor is to host the application but do not specify any
                                                          service levels for contractors to uphold with regard to hosting. Additionally, as noted



14-P-0323

                                                                                                                                           8
                                               in audit step 3.1, the prime contractor agreed to the subcontractor’s service
                                               agreement that contained a disclaimer on any and all warranties.
  4.2   Does the executed SLA for the    No    The auditor reviewed and concluded that there are no SLAs that specify required
        cloud service specify required         uptime percentages for the PMOS in the EPA’s performance work statements
        uptime percentages?(NIST SP            specified in the BPA, or in the task orders that have Performance Standards and
        800-146, 3.1)                          Quality Assurance Surveillance Plans.
  4.3   Does the executed SLA for the    No    There are no uptime requirements for PMOS.
        cloud service describe how
        the uptime percentage is
        calculated? (NIST SP 800-
        146, 3.1)
  4.4   Does the executed SLA detail     No    There are no uptime requirements for PMOS.
        remedies to be paid by the
        CSP to the agency if the
        uptime requirements are not
        met? (NIST SP 800-146, 3.1)
  4.5   Has the department/agency        No    There are no uptime requirements for PMOS.
        assigned someone to monitor
        the actual uptime, compare it
        to the percentage included in
        the executed SLA, and pursue
        service credits if applicable?
        (NIST SP 800-146, 3.1)
  4.6   Has the department/agency        No    There are no uptime requirements for PMOS.
        realized any service credits
        due to uptime failures?
  4.7   Does the executed SLA detail     Yes   The auditor reviewed and concluded that the BPA indicates:
        data preservation
        responsibilities? (NIST SP               •   “Once the prototype’s requirements are stable, the system will be brought in
        800-146, 3.1)                                line with EPA’s Architecture.”…

                                                 •   “Unless specified elsewhere in this contract, title to items furnished in the
                                                     contract shall pass to the Government upon acceptance, regardless of when or
                                                     where the Government takes possession.”

                                               Task orders related to the PMOS indicate the contractor shall use a Microsoft
                                               Access format to perform two backups per month of the files with priority permit
                                               status.


14-P-0323

                                                                                                                                  9
  4.8   Does the executed SLA            No    SLAs that address scheduled service outages are not addressed in the performance
        address scheduled service              work statements specified in the BPA, or in the task orders that have Performance
        outages? (NIST SP 800-146,             Standards and Quality Assurance Surveillance Plans.
        3.2)
  4.9   Does the executed SLA            No    There are no uptime requirements for PMOS.
        require a service outage to be
        announced in advance in
        order not to be considered a
        failure to meet uptime
        requirements?
 4.10   Does the executed SLA            No    The PMOS BPA (EP-BPA-12-C-0010) does contain a change clause that states:
        address service agreement
        changes? (NIST SP 800-146,             “Changes in the terms and conditions of this contract may be made only by written
        3.2)                                   agreement of the parties.”

                                               However, the service agreement between the prime contractor and the
                                               subcontractor hosting the application indicates the cloud service provider can make
                                               unilateral changes to the terms of the service agreement by posting to its website.
 4.11   If the CSP reserves the right    Yes   The PMOS BPA (EP-BPA-12-C-0010) contains a change clause that states:
        to modify the terms of the
        service agreement at any               “Changes in the terms and conditions of this contract may be made only by written
        time, does the executed SLA            agreement of the parties;”
        require the CSP to provide
        notice of the changes to the           However, unbeknownst to EPA, the service agreement between the prime contractor
        agency?                                and the subcontractor hosting the application indicates the cloud service provider
                                               can make unilateral changes to the terms of the service agreement by posting to the
                                               subcontractor’s website.




14-P-0323

                                                                                                                             10
Procedure Step:        5. Access to CSP for Audit and Investigative Purposes
                       Determine if contracts with cloud service providers (CSPs) contain recommended language for allowing
Purpose:
                       agency personnel access to CSP facilities to perform audit and investigative activities as needed.
                   Review selected contracts with CSPs and determine whether they contain the recommended Federal
Scope/Methodology: Acquisition Regulation (FAR) clauses for access to CSP facilities and specific details addressing investigative,
                   forensic and audit access.

                       If the contract was procured through the GSA IT 70 Federal Supply Schedule (FSS), a GSA BPA, or a shared
                       service BPA, when reviewing the contract, be sure to include the original contract and solicitation
Note:
                       documentation that was agreed to by GSA or the BPA originating agency in your review to ensure all contract
                       documentation is reviewed prior to making a determination on the results of your audit testing.

                       A supplemental guide was created to assist the auditor with identifying the additional terms, conditions and
Supplement:
                       clauses. The guide is titled “CIGIE Audit Results Matrix Supplement-IT 70 Schedule Clauses.docx.”


Prepared By:            Albert E. Schmidt
Reviewed By:            Charles M. Dade

Criteria:
                       (b) To the extent required to carry out a program of inspection to safeguard against threats and hazards to the
                       security, integrity, and confidentiality of Government data, the Contractor shall afford the Government access
FAR 52.239-1(b)
                       to the Contractor’s facilities, installations, technical capabilities, operations, documentation, records, and
                       databases.

                    “Full cooperation”— (1) Means disclosure to the Government of the information sufficient for law
                    enforcement to identify the nature and extent of the offense and the individuals responsible for the conduct. It
FAR 52.203-13(a)(1)
                    includes providing timely and complete response to Government auditors’ and investigators' request for
                    documents and access to employees with information;



14-P-0323

                                                                                                                                  11
                         General. (1) The Comptroller General of the United States, an appropriate Inspector General appointed under
                         section 3 or 8G of the Inspector General Act of 1978 (5 U.S.C. App.), or an authorized representative of either
FAR 52.215-2 (d)(1)      of the foregoing officials, shall haveaccess to and the right to— (i) Examine any of the Contractor’s or any
                         subcontractor’s records that pertain to and involve transactions relating to this contract or a subcontract
                         hereunder; and (ii) Interview any officer or employee regarding such transactions.

Cloud Best
                         https://cio.gov/wp-content/uploads/downloads/2012/09/cloudbestpractices.pdf
Practices:
                         The Cloud Best Practices is a joint publication between the CIO Council and the Chief Acquisition Officers
                         Council - we have included these benchmarks for cloud contracts within our testing because the paper was
                         created with the intention of being "the next step in providing Federal agencies more specific guidance in
                         effectively implementing the “Cloud First” policy and moving forward with the “Federal Cloud Computing
                         Strategy” by focusing on ways to more effectively procure cloud services within existing regulations and
                         laws.”

Audit       Question to Address            Response                                        IG Comments
Step #
 5.1   Does the cloud contract,               Yes         The contract between the prime contractor and the EPA contains the FAR
       service level agreement                            clause 52.239-1 [48 CFR 52.239-1] via the applicable GSA Federal Supply
       (SLA), or Terms of Service                         Schedule Contract. However, the prime contractor agreed to the service
       (TOS) agreement, contain                           agreement of the subcontractor hosting the application, and this agreement does
       FAR clause 52.239-1, allowing                      not contain the FAR clause 52.239-1. The agreement contains language that
       the agency access to the                           would prevent the prime contractor from imposing clauses found in the EPA’s
       CSP’s facilities, installations,                   contract with the prime contractor on the subcontractor.
       technical capabilities,
       operations, documentation,
       records, and databases?
 5.2   Does the cloud contract, SLA,          No          For the PMOS BPA, task orders, and modifications, the PMOS contract did not
       or TOS allow agencies to                           contain language that allows the EPA to conduct forensic investigations for both
       conduct forensic investigations                    criminal and non-criminal purposes without interference from the CSP.
       for both criminal and non-
       criminal purposes without
       affecting data integrity and
       without interference from the

14-P-0323

                                                                                                                                        12
        CSP? (Cloud Best Practices,
        Pg. 15, Forensics)
  5.3   Does the cloud contract, SLA,    No    For the PMOS BPA, task orders, and modifications, the PMOS contract, SLA, or
        or TOS allow the CSP to only           TOS did not contain language to restrict the CSP to only making changes to the
        make changes to the cloud              cloud environment under specific standard operating procedures agreed to by
        environment under specific             the CSP and the EPA in the contract.
        standard operating procedures
        agreed to by the CSP and the
        federal agency in the
        contract? (Cloud Best
        Practices, Pg. 15, Forensics)
  5.4   Does the cloud contract, SLA,    Yes   The contract between the prime contractor and the EPA contains the FAR
        or TOS include FAR clause              clause 52.203-13 [48 CFR 52.203-13] via the applicable GSA Federal Supply
        52.203-13, requiring                   Schedule Contract. However, the prime contractor agreed to the service
        contractors fully cooperate by         agreement of the subcontractor hosting the application and this agreement does
        disclosing sufficient                  not contain the FAR clause 52.203-13. The agreement contains language that
        information for law                    would prevent the prime contractor from imposing clauses found in the EPA’s
        enforcement to identify the            contract with the prime contractor on the subcontractor.
        nature and extent of the
        offense as well as providing
        timely response to
        government auditor and
        investigator requests for
        documents and access to
        employees with information?
        (FAR 52.203-13 (a)(1))
  5.5   Does the cloud contract, SLA,    No    For the PMOS BPA, task orders, and modifications, the PMOS contract did not
        or TOS address procedures              contain language to address procedures for electronic discovery when
        for electronic discovery when          conducting a criminal investigation.
        conducting a criminal
        investigation?
  5.6   Does the cloud contract,         No    For the PMOS BPA, task orders, and modifications, the contract between the
        service level agreement                prime contractor and the EPA does not contain FAR clause 52.215-2 [48 CFR
        (SLA), or Terms of Service             52.215-2].
        (TOS) agreement, contain
        FAR clause 52.215-2, granting
        the Inspector General access
        to: (i) Examine any of the
        contractor’s or any

14-P-0323

                                                                                                                            13
        subcontractor’s records that
        pertain to and involve
        transactions relating to this
        contract or a subcontract
        hereunder; and (ii) Interview
        any officer or employee
        regarding such transactions?
  5.7   Does the cloud contract, SLA,     No   For the PMOS BPA, task orders, and modifications, the PMOS contract, SLA, or
        or TOS include language                TOS did not include language that allows the Office of Inspector General full and
        allowing the Office of                 free access to contractor and subcontractor facilities, installations, operations,
        Inspector General full and free        documentation, databases, and personnel used in performance of the contract in
        access to the contractor’s (and        order to conduct audits, inspections, investigations or other reviews.
        subcontractor's) facilities,
        installations, operations,
        documentation, databases,
        and personnel used in
        performance of the contract in
        order to conduct audits,
        inspections, investigations, or
        other reviews?




14-P-0323

                                                                                                                              14
Procedure Step:            6. Review the Agency’s Process for Monitoring Its Cloud Computing Provider
                           Determine whether the agency monitors its cloud computing providers (and if applicable integrators)
Purpose:
                           to ensure they meet service level obligations.

                   Review the cloud service documentation for the selected contracts, conduct interviews with applicable
                   personnel and compare with recommended best practices for contract and service level agreement monitoring
Scope/Methodology:
                   to determine whether the agency has a process in place to effectively manage its cloud computing providers
                   to ensure they meet their contractual obligations.

Prepared By:               Albert E. Schmidt
Reviewed By:               Charles M. Dade

Audit      Question to Address          Response                                              IG Comments
Step #
 6.1   Has the agency designated a Yes                     The agency designated a Task Order Contract Officer Representative, who is
       person responsible for                              responsible for monitoring the system integrator (the prime contractor) to verify that
       monitoring the cloud service                        contractual obligations are met.
       provider (CSP) and/or the
       system integrator to verify that
       contractual obligations are
       met?




  6.2   Does the agency monitor its       No               The agency does not have a service level agreement associated with the contract
        cloud service provider to                          reviewed.
        ensure its service level
        obligations are met?
  6.3   Does the agency monitor its       No               The agency does not have a service level agreement associated with the contract
        system integrator, if different                    reviewed.
        from the CSP, to ensure its
        service level obligations are
        met?


14-P-0323

                                                                                                                                            15
Procedure Step:          7. Enterprise Management of Cloud Service Providers
                         Determine if the department/agency centrally manages contracts with cloud service providers to fully
Purpose:
                         recognize all applicable pricing discounts.
                         Interview applicable personnel and review applicable documentation to determine if the department/agency
Scope/Methodology:
                         centrally manages contracts with cloud service providers to fully recognize all applicable pricing discounts.


Prepared By:               Albert E. Schmidt
Reviewed By:               Charles M. Dade

Audit        Question to Address           Response                                          IG Comments
Step #
  7.1  Does the department/agency              No          The EPA does not have an office or a group that centrally manages cloud service
       have an office or group that                        contracts. Management of contracts (including cloud services) is shared between
       centrally manages cloud                             an individual program office and the agency’s OAM.
       service contracts to recognize
       applicable pricing discounts?
 7.1a If so, was this office/group             No          Management of the procurement of contracts (including cloud services) is shared
       utilized to procure all cloud                       between a program office and the OAM.
       services sampled?
  7.2  Were any pricing discounts              No          The summary price sheet for the EPA's BPA with the prime contractor indicates the
       realized on the cloud services                      base year’s quoted rates are from the prime contractor’s GSA contract. Additionally,
       procured?                                           there is a 3 percent annual escalation for the option years, because the prime
                                                           contractor had to estimate what the actual GSA rates would be for the years
                                                           beyond the base year, and because the prime contractor’s GSA contract specifies
                                                           that escalation is based on the Department of Labor’s employment cost index.
 7.2a   If so, document the amount of          N/A
        savings into the response
        field.
  7.3   Was a blanket purchase                 Yes         There was a BPA used to procure this cloud service. The BPA was for technical
        agreement (BPA) used to                            support services, not cloud services. There is no use of cloud services in the BPA.
        procure this cloud service?                        A subcontractor was providing cloud services.
  7.4   Was a GSA cloud BPA used               No          Although the EPA said GSA schedule holders were solicited for cloud service, the
        to procure this cloud service?                     BPA was for technical support services and not cloud services. A subcontractor
                                                           was providing cloud services.



14-P-0323

                                                                                                                                          16
  7.5   Was the GSA IT 70 Federal        No    Although EPA indicated that GSA schedule holders were solicited for the EPA's
        Supply Schedule (FSS) used             BPA for the PMOS contract; the GSA IT 70 Federal Supply Schedule was not used
        to procure this cloud service?         to procure the PMOS cloud service. Additionally, the Subcontractor that was
                                               providing the cloud service, was not included on the GSA schedules.
  7.6   Was a cost savings analysis      No    There was no cost savings analysis done.
        performed on the use of the
        cloud service?
 7.6a   If so, document the amount of    N/A   Since there was not a cost savings analysis done, there are no identified savings to
        savings identified into the            document
        response field.




14-P-0323

                                                                                                                              17
Procedure Step:              8. FedRAMP Compliance
                             Determine the progress of the cloud service and cloud service provider (CSP) in obtaining FedRAMP
Purpose:
                             compliance for the system/service implemented.
                             Verification with FedRAMP portals, cloud service document review, and interviews with applicable
Source:
                             personnel.
Scope/Methodology:           For the cloud services selected, review evidence of FedRAMP compliance submitted by the agency.


Prepared By:         Albert E. Schmidt
Reviewed By:         Charles M. Dade

Criteria:
FedRAMP Reference Guide: http://www.gsa.gov/portal/mediaId/170599/fileName/Guide_to_Understanding_FedRAMP_042213
FedRAMP Compliance Steps: http://www.gsa.gov/portal/category/102999
FedRAMP Compliant CSP: http://www.gsa.gov/portal/content/131931
FedRAMP Compliant 3PAO: http://www.gsa.gov/portal/content/131991
FedRAMP Contract Clauses: http://www.gsa.gov/graphics/staffoffices/FedRAMP_Standard_Contractual_Clauses_062712.pdf
FedRAMP Concept of Operations: http://www.gsa.gov/portal/mediaId/154239/fileName/CONOPS_V12_072712
FedRAMP Sec Controls Preface: http://www.gsa.gov/graphics/staffoffices/FedRAMP_Security_Controls_072912.zip
FedRAMP Baseline Sec Controls: http://www.gsa.gov/graphics/staffoffices/FedRAMP_Security_Controls_072912.zip

Audit       Question to Address          Response                                        IG Comments
Step #
 8.1   Is the cloud service FedRAMP No                The EPA’s CSP was not included in the GSA’s Federal Risk and Authorization
       compliant?                                     Management Program (FedRAMP) listing.

                                                      The OAM said the purpose of the PMOS procurement order was:

                                                      “Not to procure Cloud services, rather the order was placed for technical support
                                                      services in support of existing systems as follows: develop, maintain, and revise the
                                                      eNOI and NOI Processing Systems, modify the eNOI system to accommodate new
                                                      permits, provide regional, state, and public access to permit documents, data, and
                                                      posting support, develop system training tools, and track permit priority and
                                                      backlog. Per the afore-mentioned excerpt from the Performance Work Statement,

14-P-0323

                                                                                                                                     18
            there is no mention of a cloud services requirement. In response to the solicitation,
            vendors were required to offer their best technical solution for completing the above
            tasks, and [the prime contractor] offered a technical solution that included the cloud.
            Since the requirement was not for Cloud services, there was no reason for the
            contract to contain terms and conditions specifically on the performance of cloud
            services.”

            Although, the EPA did not intend to procure a cloud service, the agency accepted a
            contract whose technical solution included the cloud. As a result, the auditor
            concludes that the contract should have included terms and conditions specifically
            on the performance of cloud services for those parts of the contract hosted in the
            cloud.

            Additionally, OAM stated that “the cloud services part of the technical solution was
            performed by a subcontractor to the prime awardee.” As a result, the OAM believed
            that “per FAR 42.505 the EPA has no privity of contract with a subcontractor.
            Accordingly, the reason [OAM does] not ‘appear to have any oversight or control’
            over the subcontractor’s activities is because [OAM is] legally precluded from such
            a relationship.”

            The EPA’s Required Practices Concerning Subcontracts indicates the following:

            “Before consenting to a subcontract, the [contracting officer] CO reviews the
            request and supporting data and considers such factors as: technical need for
            services, compliance with the prime contract’s goals for subcontracting with small
            disadvantaged business and women-owned business concerns, adequacy of
            competition, responsibility of the proposed subcontractor, proposed type and terms
            and conditions of the subcontract, and adequacy and reasonableness of cost or
            price analysis performed. The project officer reviews the prime contractor’s request
            for subcontract consent, and provides comments to the CO on the technical need
            and appropriateness of the supplies or services, the reasonableness of the
            subcontract estimate in terms of level of effort, and types and quantities of
            proposed other direct costs; location, duration, number of travelers and purpose of
            proposed travel; skill level, labor mix, and direct labor hours to be expended; and
            the capabilities of the proposed subcontractor.”

            As a result, the auditor concludes that the CO should only consent to
            subcontractors for hosting services, if the subcontractor meets the necessary
            federal security requirement.


14-P-0323

                                                                                             19
 8.1a   If not, has the agency or the      No    Per the CO, the EPA has not pursued any actions regarding the FedRAMP and the
        CSP applied to FedRAMP to                subcontractor. In fact, the subcontractor is responsible for hosting the Permit
        initiate the assessment                  Management Oversight System (PMOS) application and has a service agreement
        review?                                  with the prime contractor, which includes a disclaimer wherein the subcontractor
                                                 states that it “does not warrant that the services and/or any information obtained
                                                 thereby shall be complete, accurate, uninterrupted, secure or error free.”
 8.1b   If not, has the CSP           No         Per the contracting officer, the EPA has not pursued any actions regarding the
        documented its FedRAMP                   FedRAMP and the subcontractor. In fact, the subcontractor is responsible for
        implemented security controls            hosting the PMOS application and has a service agreement with the prime
        in its System Security Plan?             contractor, which includes a disclaimer wherein the subcontractor states that it
                                                 “does not warrant that the services and/or any information obtained thereby shall be
                                                 complete, accurate, uninterrupted, secure or error free.”
 8.1c   If not, has the cloud service      No    Per the contracting officer, the EPA has not pursued any actions regarding the
        undergone an independent                 FedRAMP and the subcontractor. Additionally, a subcontractor representative said
        assessment completed by a                the cloud service has not undergone an independent assessment by a FedRAMP-
        FedRAMP-approved                         approved Third-Party Assessment Organization.
        Third-Party Assessment
        Organization (3PAO)? (Verify
        if the vendor is included on the
        “FedRAMP Compliant 3PAO”
        list, included in the criteria
        links)
 8.1d   Specify assessment                 N/A   The EPA’s cloud service has not undergone an independent assessment by a
        organization in response field           FedRAMP-approved Third-Party Assessment Organization.
  8.2   Has the cloud service provider     No    Per the contracting officer, the EPA has not pursued any actions regarding the
        received a provisional                   FedRAMP and the subcontractor. Additionally, the subcontractor is not found on the
        authorization from the Joint             listing of CSPs that received provisional authorization from the Joint Authorization
        Authorization Board?                     Board.
  8.3   Did the agency leverage, or        Yes   The EPA has a contract with a vendor for Infrastructure-as-a-Service. The vendor is
        does it plan on leveraging, a            included on the listing of FedRAMP-compliant CSPs with a provisional authorization
        pre-existing provisional                 to operate.
        authorization from a
        FedRAMP-approved CSP?
 8.3a   If so, did the agency              Yes   The EPA issued an authorization to operate for the Infrastructure-as-a-Service
        separately address a subset of           cloud vendor contract. The authorization to operate indicated the security
        security controls with the CSP           authorization of the information system will remain in effect as long as the
        that was not documented in               conditions exist as follows:
        the Provisional Authorization            1. The vulnerabilities reported during the continuous monitoring process do not
        originally granted by the JAB?           increase agency-level risk to levels deemed unacceptable.

14-P-0323

                                                                                                                               20
            2. The system has not undergone any major changes requiring the system security
            plan to be updated.
            3. The system’s owner commits to complete any plan of actions and milestone that
            are established now or in the future to ensure the continued effectiveness of the
            system security plan and the security controls specified.




14-P-0323

                                                                                        21
                                                     Appendix A

            CIGIE Cloud Computing Survey
                 Returned by the EPA




                This page intentionally left blank




14-P-0323                                                22
14-P-0323   23
14-P-0323   24
14-P-0323   25
14-P-0323   26
                                                                                   Appendix B

Joint Office of Administration and Resources Management
      and Office of Water Responses to Draft Report
             and OIG Comments (June 4, 2014)
MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Audit Report No. OA-FY14-0126
               “EPA Is Not Fully Aware of Its Use of Cloud Computing Technologies” dated
               July 7, 2014

FROM:          Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

               Nancy Stoner, Acting Assistant Administrator
               Office of Water

TO:            Rudolph M. Brevard, Director
               Information Resources Management Audits
               Office of the Inspector General

Thank you for the opportunity to respond to the factual accuracy of the draft audit report “Office
of Inspector General Draft Audit Report No. OA-FY14-0126 “EPA Is Not Fully Aware of Its
Use of Cloud Computing Technologies” dated July 7, 2014.

The EPA agrees that the OIG’s Council on the Inspectors General on Integrity and Efficiency
Cloud Computing Collaboration Results Matrix is factually correct. However, throughout the
fieldwork and data collection phase of the audit, the EPA was concerned with the OIG’s narrow
approach of evaluating EPA’s use of cloud computing technologies.

The OIG requested that the Office of Administration and Resources Management provide data
on EPA procurements for cloud computing but the draft audit focused on only one order under a
Blanket Purchase Agreement. The audited BPA was established to procure technical support to
develop, maintain, and revise the EPA’s Electronic Notice of Intent and Permit Management
Oversight Processing Systems, not to procure cloud services. As a result, the performance work
statement solicited under the BPA did not contain a cloud services requirements and was not
considered a cloud contract. However, in response to the solicitation, vendors proposed their
best technical solutions for completing performance work statement tasks, and the awardee
offered a technical solution that included the cloud, which was provided under a subcontract.
Because of the afore-mentioned circumstances surrounding this procurement, the primary order
did not contain cloud specific terms and conditions such as terms of service clauses and service
level agreements.




14-P-0323                                                                                       27
In light of advances in cloud computing and the federal security management controls the Office
of Water will evaluate its management controls to make sure our contracts are adhering to
federal and EPA policies, procedures, and guidance with regards to cloud computing.
Additionally, OARM acknowledges responsibility for ensuring contracts awarded also contain
the appropriate terms and conditions, and clauses, applicable to the technical nature of the
requirement. OARM had advised the OIG that the Federal Procurement Data System, the
primary source of acquisition data government-wide, does not collect data specifically on cloud
computing and therefore not be relied on for the questionnaire on this subject.

Please contact John Bashista, Director, Office of Acquisition Management, OARM, at 202-564-
4310, or Lisa Maass, OAM Audit Follow-up Coordinator, OARM, at 202-564-2498 for
acquisition related questions. For questions regarding the Office of Water, please contact
Thomas Dabolt, Director, IM/IT Project Management Office, OW, at 202-564-1450, or Vince
Allen, Assistant Information Management Officer, OW, at 202-564-1675.

Attachment

cc:
Charles Dade
Albert Schmidt
Nanci Gelb
John Showman
Thomas Dabolt
John Bashista
Marilyn Ramos
Vince Allen
Brandon McDowell
Lisa Maass



  OIG Comments

  During the entrance meeting, the OIG indicated that OAM should coordinate with the Office of
  Environmental Information (OEI) in determining the population of cloud IT services. The OIG did not
  identify any particular data system for OAM to use to identify the population of the EPA’s cloud IT
  services. This would be something that the agency would need to identify and track as a part of its
  procurement process to ensure that appropriate clauses to protect the government are included
  during the procurement process. The OIG did not rely on any database when performing the audit
  work.

  Prior to starting work on this audit, we were in the process of performing a cloud audit related to two
  of OEI’s cloud initiatives. During that separate audit, we collected information that made us aware of
  two cloud initiatives within other program offices. Since we selected two cloud initiatives from OEI
  during the other audit, we selected one of the initiatives from a different program office to not
  overburden OEI. We selected the cloud initiative for testing as a part of this review prior to receiving
  the completed cloud survey from the agency.




14-P-0323                                                                                                    28
                                                                                Appendix C


                                     Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Water
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Administration and Resources Management
Principal Deputy Assistant Administrator for Water
Principal Deputy Assistant Administrator for Environmental Information
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Water




14-P-0323                                                                                29
